Supreme G-ourt, U.S.
FILED

JUL / 2 202/

3I-S5
No.

®ceoftheclerK

3fa®jie

Supreme Court of tfje SUntteb States:
NEIL LEEDS,
Petitioner,
v.
HANMI BANK,
Respondent.

On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Second Appellate District

PETITION FOR WRIT OF CERTIORARI

Neil G. Leeds
Pro Se
1126 Crenshaw Blvd.
Torrance, CA 90501
Telephone (818) 738-5286
neilleeds@mail.com
Council for Petitioner

fthf

1

QUESTIONS PRESENTED
The American Dream. Where a young citizen beat
the odds of adversity and extreme poverty with only a
ninth grade education to build one of the most recog­
nized brand of mattress stores in Los Angeles using
his first and last name in likeness to his corporation.
Only to have his bank leave him bankrupt and home­
less after an entire life of work, which would leave him
no access to justice to defend himself in court.
(1) Whether the lower court including the appeal
court should have followed The California Supreme
Court Ruling under Jameson v. Desta to provide a free
court reporter for a pro se In forma pauperis litigant.
(2) Whether the appeal court can dismiss the
pro se litigants corporation which is also his personal
name on appeal after all fees were paid and was timely
rendering his ability to challenge his original case filed
impossible under the theory of law raised by opposing
counsel.
(3) Whether a small business corporation. With
that being the President Ceo as the only owner share­
holder the ability to have standing to litigate under the
Unruh Civil Rights Act.

- %

11

PARTIES TO THE PROCEEDINGS
All parties appear in the caption of the case on the
cover page.
STATEMENT OF RELATED PROCEEDINGS
SEPTEMBER 20, 2018. IN THE SUPERIOR
COURT OF THE STATE OF CALIFORNIA, COUNTY
OF LOS ANGELES, CENTRAL DISTRICT, STANLEY
MOSK COURTHOUSE IN ITS UNPUBLISHED RE­
PORT JUDGMENT OF DISMISSAL WITH PREJ­
UDICE AFTER SUSTAINING OF DEMURRER
TO SECOND AMENDED COMPLAINT WITHOUT
LEAVE TO AMEND. CASE No. BC685311 LEEDS
MATTRESS STORES INC., a California corpora­
tion; NEIL LEEDS an individual, Plaintiffs v. HANMI
BANK a California corporation; and DOES 1-100 in­
clusive, Defendants
JULY 8, 2019. IN THE COURT OF APPEAL OF
THE STATE OF CALIFORNIA, COUNTY OF LOS
ANGELES SECOND APPELLATE DISTRICT DIVI­
SION THREE IN ITS UNPUBLISHED REPORT THE
MOTION BY APPELLANT LEEDS MATTRESS
STORES, INC. (LMS) TO RECALL THE REMIT­
TITUR AND TO REINSTATE ITS APPEAL IS DE­
NIED. THE COURT ALSO DENIES LMS’s REQUEST
TO “AMEND” CASE No. B294238, BC685311 LEEDS
MATTRESS STORES, INC., et al., Plaintiffs and Ap­
pellant Neil Leeds v. HANMI BANK, Defendant and
Respondent.

Ill

STATEMENT OF RELATED PROCEEDINGS Continued
OCTOBER 27, 2020. IN THE COURT OF AP­
PEAL OF THE STATE OF CALIFORNIA SECOND
APPELLATE DISTRICT DIVISION THREE IN ITS
UNPUBLISHED, NOTICE OF DEMURRER AND DE­
MURRER BY DEFENDANT HANMI BANK TO
EACH CAUSE OF ACTION IN THE SECOND
AMENDED COMPLAINT, ETC. THE JUDGMENT IS
AFFIRMED. CASE No. B294238, BC685311 LEEDS
MATTRESS STORES, INC, et al.; Plaintiffs and Appel­
lants, v. Hanmi Bank Defendant And Respondent. Neil
Leeds, IN PRO PER; FOR PLAINTIFF AND APPEL­
LANT.
FEBRUARY 10, 2021. IN THE SUPREME
COURT OF CALIFORNIA, Division SF. Supreme
Court Case: S265982 LEEDS MATTRESS STORES v.
HANMI BANK. Plaintiff and Appellant: Neil Leeds
Pro Per. THE PETITION FOR REVIEW IS DENIED.

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.................................

1

PARTIES TO THE PROCEEDINGS...................

11

STATEMENT OF RELATED PROCEEDINGS....

11

TABLE OF CONTENTS........................................

IV

TABLE OF AUTHORITIES...................................

V

OPINIONS BELOW................................................

1

JURISDICTION......................................................

2

CONSTITUTIONAL PROVISIONS INVOLVED....

3

STATEMENT OF CASE..........................

3

REASONS TO GRANT THE PETITION

21

CONCLUSION..........................................

35

APPENDIX
Court ofAppeal Opinion filed October 27,2020.... App. 1
Superior Court Judgment filed September 20,
App. 11
2018
Supreme Court of California Denial of Review
App. 27
filed February 10, 2021
Court of Appeal Motion to Recall the Remittitur
App. 28
filed May 30,2019

V

TABLE OF AUTHORITIES
Page
Cases
Adkins v. E. I. DuPont de Nemours & Co., Inc.,
335 U.S. 331 (1948)
Angelucci v. Century Supper Club (2007) 41
CaUth 160
Bekins v. Astrazeneca Pharms. LP, No. 17-55461
(9th Cir. June 28,2018)
Blank v. Kirwan 39 Cal.d 311
Broberg v. The Guardian Life Ins. Co. ofAmerica
(2009) 171 cal.App. 4th 912
Californians For Disability Rights v. Mervyn’s,
LLC (2006) 39 CaUth 223
Carmen Gaspar v. Leeds Mattress Stores Inc et
al, (2009).................................................................

8

Chavez v. Indymac Mortgage Services (2013)
219 CaLApp. 4th 1052
Committee for Green Foothills v. Santa Clara
County BD. of Supervisors (2010) 48 CaUth
32

Committee on Children’s Television, Inc. v. Gen­
eral Foods Corp (1983) 35 Cal.3d 197
Del E Webb Corp. v. Structural Materials Co.
(1981) 123 Cal.App.3d. 593
Dogan v. Comanche Hills Apartments, Inc., 31
Cal.App.5th 566 (Cal. Ct. App. 2019)..............
Earls v. Superior Court, 6 Cal.3d 109 (Cal.
1971)

26

VI

TABLE OF AUTHORITIES - Continued
Page
F&F, LLC v. East West Bank (2014)...................
Garnet v. Blanchard, 91 Cal.App.4th 1276 (Cal.
Ct. App. 2001)....................................................
Gatto v. County
Cal.App.4th 744

of Sonoma

(2002)

9
25

98

Gideon v. Wainwright, 372 U.S. 335 (1963)........ . 21,34
Harris v. Santa Monica (2013) 56 Cal 4th 203
Harris v. Santa Monica 56 Cal.4th 203 (Cal.
2013)
Isrin v. Superior Court, 63 Cal.2d 153..........

7,23

Jameson v. Desta (2018) 5 Cal.5th 594........

.passim

Jolly v. EH Lilly & Co. (1988) 44 Cal.3d 1103
Kennedy v. Baxter Healthcare Corp (1996) 43
Cal. App. 4th 799
Koire v. Metro Car Wash (1985) 40 Cal.3d 24
Kruse v. Bank Of America (1988) 201 Cal.App.
3d 354
M. L. B. v. S. L. J., 519 U.S. 102 (1996)................
Manguso v. Oceanside Unified School Dist.
(1984)
Martin Ice Cream Co. v. Commissioner, 110 T.C.
189 (U.S.T.C. 1998)
Martin v. Superior Court, 176 Cal. 289 (Cal.
1917)

28

Vll

TABLE OF AUTHORITIES - Continued
Page
McDonnell Douglas Corp. v. Green, 411 U.S. 792
(1973)
Nogart v. Upjohn Co. (1991) 21 Cal. 4th 383
Osborne v. Yesmeh (2016) 1 Cal. App. 5th 1118
Padron v. City of Parlier, F077052 (Cal. Ct. App.
June 25, 2020)....................................................... 27
Payne v. National Collection Systems, Inc., n
(2001) 91 Cal.App.4th 962
Randi W. v. Muroc Joint Unified School Dist.
(1997) 14 Cal.4th 1066
Shively v. Bozanich (2003) 31 Cal.4th 1230
Constitutional, Statutory, and
Ordinance Provisions Involved
U.S. Const, amend. XIV § 1...........................

3

28 U.S. Code § 1257(a).................................

2

Statute Citations
Business & Professions Code (§)17200-17209..
Civ. Code, §§ 51, 52............................................

5
...11

CA Ev Code § 459........ .....................................

32,33

1
OPINIONS BELOW
SEPTEMBER 20, 2018. IN THE SUPERIOR
COURT OF THE STATE OF CALIFORNIA, COUNTY
OF LOS ANGELES, CENTRAL DISTRICT, STANLEY
MOSK COURTHOUSE IN ITS UNPUBLISHED RE­
PORT JUDGMENT OF DISMISSAL WITH PREJ­
UDICE AFTER SUSTAINING OF DEMURRER
TO SECOND AMENDED COMPLAINT WITHOUT
LEAVE TO AMEND. CASE No. BC685311 LEEDS
MATTRESS STORES INC., a California corpora­
tion; NEIL LEEDS an individual, Plaintiffs v. HANMI
BANK a California corporation; and DOES 1-100 in­
clusive, Defendants
JULY 8, 2019. IN THE COURT OF APPEAL OF
THE STATE OF CALIFORNIA, COUNTY OF LOS
ANGELES SECOND APPELLATE DISTRICT DIVI­
SION THREE IN ITS UNPUBLISHED REPORT THE
MOTION BY APPELLANT LEEDS MATTRESS
STORES, INC. (LMS) TO RECALL THE REMIT­
TITUR AND TO REINSTATE ITS APPEAL IS DE­
NIED. THE COURT ALSO DENIES LMS’s REQUEST
TO “AMEND” CASE No. B294238, BC685311 LEEDS
MATTRESS STORES, INC., et al., Plaintiffs and Ap­
pellant Neil Leeds v. HANMI BANK, Defendant and
Respondent.
OCTOBER 27, 2020. IN THE COURT OF AP­
PEAL OF THE STATE OF CALIFORNIA SECOND
APPELLATE DISTRICT DIVISION THREE IN ITS
UNPUBLISHED, NOTICE OF DEMURRER AND DE­
MURRER BY DEFENDANT HANMI BANK TO EACH

2
CAUSE OF ACTION IN THE SECOND AMENDED
COMPLAINT, ETC. THE JUDGMENT IS AFFIRMED.
CASE No. B294238, BC685311 LEEDS MATTRESS
STORES, INC. et al., Plaintiffs and Appellants v.
Hanmi Bank, Defendant and Respondent. Neil Leeds,
IN PRO PER; FOR PLAINTIFF AND APPELLANT.
FEBRUARY 10, 2021. IN THE SUPREME
COURT OF CALIFORNIA, Division SF. Supreme
Court Case: S265982 LEEDS MATTRESS STORES v.
HANMI BANK. Plaintiff and Appellant: Neil Leeds
Pro Per. THE PETITION FOR REVIEW IS DENIED.

JURISDICTION
The California Supreme Court denied petition for
review on February 10, 2021. This petition was timely
filed, consistent with the Supreme Court’s March 19,
2020 Order, within 150 days of that judgment. This
Court has jurisdiction under 28 U.S. Code § 1257(a).

3

CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Constitution
Amendment XIV § 1
Section 1.
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are citi­
zens of the United States and of the state wherein they
reside. No state shall make or enforce any law which
shall abridge the privileges or immunities of citizens of
the United States; nor shall any state deprive any per­
son of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the
equal protection of the laws.

STATEMENT OF CASE
This case is an excellent vehicle to share the ex­
treme difficulty this plaintiff had to access equal jus­
tice under law without the ability to afford proper
council for himself and his personal corporation. There
are multiple layers throughout the entire civil case and
due process procedure that bolted the door to justice.
The plaintiff from the initial date of filing his case
throughout the pleading stages to appeal, oral argu­
ment. Petitioning for rehearing with Judicial Notice.
To seeking The California Supreme Court for review.
Mr. Leeds would seek to learn the law on his own and
with little help from the two attorneys that worked
with him on what should of been the opportunity for a

4
jury trial, but ended up being turned down in the year
2018 after sustaining two demurrers and no leave to
amend. Plaintiff Neil Leeds grew up in Queens N.Y. in
a broken home due to a divorce his mother and dad
experienced before he was bom. He was placed in mul­
tiple foster homes and attended head start which is a
government funded operation. Mr. Leeds never lived
with his dad who passed away in October 2015. Mr.
Leeds mother is currently under care for colon cancer
in New York. Mr. Leeds has no ability to provide to his
mother as he once did as a direct result of Hanmi
Banks actions against him. Mr. Leeds never had the
opportunity to attend school properly as the extreme
poverty that his mother endured left them on welfare
and the inability to have proper clothes or food on the
table at times. Mr. Leeds did in fact drop out of his pub­
lic education in the ninth grade to begin his work ca­
reer. Leaving his writing and education very limited up
in till this day of writing. Mr. Leeds has been in self
study to learn the history of The United States Consti­
tution with little time. Mr. Leeds would find case law
including Abraham Lincoln that brought him to under­
stand Judicial Notice on his appeal. Which never was
accepted throughout the entire case before your court.
With no ability to bring in evidence and realizing he
was left without the ability to ever be before any judge
at the trial level. The case continued with the inability
for him to ever proceed on the merits of his case. Mr.
Leeds did not have any knowledge of the legal proce­
dure. But he complied with all of the courts requests.
Mr. Leeds would realize that he had no court reporter
in the two appearances that his attorney Mr. Arash

5
from Encino Law Firm appeared at and Mr. Leeds was
denied to attend from the court as stating it was a cor­
poration case. Mr. Leeds would have the case with his
personal name included in the first complaint. Mr.
Arash H. the attorney who Mr. Leeds had been referred
to, knew of his television commercials through his
childhood and even mentioned he lived behind one of
Mr. Leeds Mattress Stores. This was in good terms to
have understanding that Mr. Leeds had numerous
mattress locations that were frequently advertised for
twenty five years. His attorney Mr. Arash H. came to
meet him for about one hour to listen to what hap­
pened as Mr. Leeds explained his entire life story lead­
ing up to where respondent Hanmi Bank left him
homeless after building a successful retail mattress
company in Los Angeles and refused to comply to his
request for his banking records to be returned. Mr.
Leeds had tried unsuccessfully to work with Hanmi
Bank directly as soon as he discovered the SEC Filings
that allowed him to begin to litigate his case. Vivian
Kim who is currently working as the in-house attorney
and attended oral argument on October thirteen of the
year twenty twenty never shared to the court all of our
emails and how Mr. Leeds placed Hanmi Bank on no­
tice less than twenty five months after his chapter
seven bankruptcy filing that was completed on De­
cember thirty of twenty fourteen. California’s “Unfair
Competition” Law - (Business & Professions Code
17200-17209)
California’s unfair competition law prohibits a
person or entity from engaging in any unlawful, unfair

6
or fraudulent business act or practice, or any false, de­
ceptive or misleading advertising. Lawsuits can be
brought by either consumers or businesses that have
been damaged by a competitor’s unfair actions. A busi­
ness practice violates the “unlawful, unfair or fraudu­
lent” prong if it is forbidden by law or is against public
policy. Almost any violation of the law can serve as the
basis for an unfair competition claim if, as a result of
the unfair competition. UCL actions in California must
be commenced within four years. The limitations pe­
riod begins to run on the earlier of: Discovery of the
unfair act, or When, in the exercise of reasonable dili­
gence, the wrongful act should have been discovered.
Mr. Leeds tried to use Judicial Notice to share
thirty three documents which he thought were already
in the court with the previous Judge that retired Mr.
Hess. Mr. Leeds was turned down as the record will
share. Mr. Leeds was able to prove that his pleadings
were all intrinsic evidence of facts. Information neces­
sary for the determination of an issue in a lawsuit that
is gleaned from the provisions of a document itself, as
opposed to testimony from a witness or the terms of
other writings that have not been admitted by the
court for consideration by the trier of fact. These rec­
ords shared The United States Bankruptcy Court:
Central District of California docket for his chapter
seven sharing his personal loss, not his corporation
that was over sixteen million shared with only two
thousand dollars left. Hanmi Bank would be the bulk
of the bankruptcy proceedings. Hanmi Bank continued
to share to the court that Mr. Leeds did not have legal

7
standing. However Mr. Leeds was the individual that
Hanmi Bank made the loans to individually to Neil
Leeds. Mr. Leeds would be told from his trustee. That
he never knew Mr. Leeds spent over twenty five million
dollars on advertising. Which led the trustee to take
longer on his filing as the trustee had to go through
over one hundred million dollars in funds that came
through his banking. Mr. Leeds placed every dollar
back to his growing business. The IRS, FTB, SBA, Fed­
eral Reserve, and Hanmi Bank hold record to every­
thing Mr. Leeds has pleaded along with Mr. Leeds.
However Mr. Leeds never had one opportunity to pre­
sent the evidence before a judge or jury. Mr. Leeds holds
all records along with Hanmi Bank of the completed
sale with Sit N Sleep. The escrow documents and the
multi millions in transactions over the years of his re­
lationship with Hanmi Bank. Vivian Kim the in-house
attorney for Hanmi Bank left Mr. Leeds in the end of
July two thousand seventeen with the email stating
that Hanmi Bank has no records of Mr. Leeds or Leeds
Mattress Stores Inc. Mr. Leeds would request the as­
sistance of Mr. Arash H. The attorney who took his case
on contingency which ended with Mr. Arash not able to
assist Mr. Leeds on appeal. Mr. Leeds has had very lit­
tle contact with Mr. Arash since he has his case sus­
tained. Mr. Leeds sent Mr. Arash H the funds he
requested for his help to pay the court costs. Which Mr.
Leeds was told his waiver for his court reporter was
approved see Isrin v. Superior Court, 63 Cal.2d 153.
The United States Supreme Court reversed, holding
that the statute, properly construed, imposed no such
burden on an attorney representing an indigent

8

person for a contingent fee. For all the foregoing rea­
sons Gomez v. Superior Court (1933) supra, 134
Cal.App. 19, is disapproved. We hold, rather, that the
right to proceed in forma pauperis in appropriate cases
may not be denied on the ground that counsel for the
indigent litigant is representing him pursuant to a
contingent fee contract. The demurrer to the petition
is overruled. Let a peremptory writ of mandate issue
as prayed. Mr. Leeds would like to share that a case
involving someone very dear to him. Litigated against
him with a statute of limitations time bar. The court
would allow the pleading to be over ruled against the
reading of the law. Mr. Leeds endured the local and
national tabloids that took the story from the court
and still remains online from thirteen years ago see
Carmen Gaspar v. Leeds Mattress Stores Inc et al,
(2009) Mr. Leeds does share it was the same court
building as he had his case that is before you. Mr.
Leeds continues to request to the news outlets to make
a consideration to remove the links. Thus far Mr. Leeds
has been denied. Mr. Leeds shares the case of how he
and his company Leeds Mattress Stores Inc were
brought in, in a similar manner, with a different result.
Mr. Leeds never would change his name of his com­
pany from the day he started as he wanted to take all
responsibility for every client and team member he
served. That name being his personal name and his
company caused the court confusion in the clerk rec­
ords. Mr. Leeds would reach to say. He was taken ad­
vantage of it by Hanmi Bank as he had no funds to
litigate against them. Mr. Leeds reached out to Lim
Nexus who represents Hanmi Bank on this matter.

9
However they did hang up on Mr. Leeds and only
reached out two times by email to share they requested
I do not attend to an oral argument to speed up the
case. Lim Nexus would ask me to extend time on a
brief. Mr. Leeds did allow for the extension but denied
not to attend oral argument mentioning how im­
portant it was to him to share his case. Mr. Leeds would
ask about a possible conflict of interest between Hanmi
Bank and Lim Nexus as to a loan he would see they
received. Limnexus LLP in Los Angeles, CA received a
Paycheck Protection Loan of $709,000 through Hanmi
Bank, which was approved in April, 2020. This loan
has been disbursed by the lender and has not yet been
fully repaid or forgiven. Mr. Leeds felt that he had no
funds to hire a law firm that was so needed. However
Hanmi Bank would loan the law firm money that is
currently representing them against Mr. Leeds on this
case before you. Mr. Leeds would watch a similar case
play out in Los Angeles. Which was settled in favor of
the plaintiff see F&F, LLC v. East West Bank (2014)
BC462714, Superior Court of California, County of Los
Angeles. FBBC obtains $38,914,610 jury verdict for
family owned business against East West Bank
In what can be considered a David and Goliath
lender liability battle, Foley Bezek Behle & Curtis,
LLP (“FBBC”) on behalf of developer, F&F, obtained a
$38,914,610 jury verdict against East West Bank
(“EWB”). FBBC charted a strategy that was designed
to organize and simplify the complicated facts so that
the “heart” of the case was immediately apparent in
trial. However, to get to the trial, FBBC navigated

10
through a myriad of obstacles designed' by EWB to
avoid that trial.
EWB counter sued F&F alleging its own damages
in the approximate amount of $12 million dollars.
FBBC successfully eliminated the Bank’s counterclaim
and after a three week trial, it prevailed on behalf of
F&F, obtaining a convincing jury award.
Before trial, EWB refused to settle for any amount
greater than $1.2 million. The principal owners of F&F
are Cambodian refugees who successfully escaped the
Khmer Rouge with virtually no money or assets and
through hard work in the United States, began to build
a family nest egg. They developed a small retail shop­
ping center, only to have it all taken away as a result
of the actions of EWB.
Specifically, on June 14, 2007, F&F, obtained a
$34,850,000.00 construction loan from East West Bank
to help finance construction of the Victoria Promenade
Project, a retail center located in Rancho Cucamonga.
Thereafter, F&F contended, among other things, that
East West Bank failed to honor its obligations and
commitments to them by wrongfully siding with the
contractor, making false representations, and commit­
ting other wrongful acts. F&F claimed that East West
Bank’s wrongful conduct caused it to lose its property
and years of hard work. F&F prevailed at trial, obtain­
ing a jury verdict in the amount of $38,914,610. This
verdict was comprised of $16,914,610 in compensatory
damages plus $22,000,000 in punitive damages. There­
after, FBBC assisted F&F in obtaining an additional

11
award from EWB of over $2 million in attorneys’ fees
and other litigation expenses. East West Bank has re­
ported the litigation cost on the SEC Filings. Mr. Leeds
tried numerous times to settle his case in favorable
terms with Hanmi Bank including to build back Leeds
Mattress Stores with a line of credit and his continued
passion and hard work. Mr. Leeds was turned down
each time.
Mr Leeds was faced with a standing situation as
to the Civ. Code, §§ 51, 52 Unruh Civil Rights Act.
Which would be shared that he needed a “substantial
motivating reason” to prove harm. Mr. Leeds will share
what was pleaded to Mr. Hess from the trial level. Mr.
Leeds does not see anything in the Clerk’s Transcript
of those pleadings. Mr. Leeds would work multiple jobs
in Flushing Queens, N.Y. [Per the 2010 United States
Census, the Korean population of Queens was 64,107,
representing the largest municipality in the United
States with a density of at least 500 Korean Americans
per square mile]. However for purposes to keep the
central merits of this controversy.
Mr Leeds begins whereby Mr. Leeds was a delivery
helper on a mattress truck working for a Korean
owned furniture store from the age of fifteen through
the age of nineteen. This is where he would have a cir­
cle of friends in the Korean Community including his
long-term girlfriend J. Shin. Mr. Leeds continued his
career leading to mattress sales that brought him out
to Los Angeles on a one way ticket from N.Y. on April
2,1995. Mr. Leeds would have employment with Bas­
sett Mattress as a sales representative to handle

!

12
twenty six JC Penney stores throughout Los Angeles
and Orange County California. Through his experience
over the many years of delivering mattresses, selling
mattresses and now having wholesale and manufac­
turing experience. Mr. Leeds would embark on his en­
trepreneur journey to open his very first humble
mattress store in North Hollywood California. The lo­
cation was in need of many repairs and the community
around his store was nearby a freeway with the home­
less community and the local youth that would con­
stantly vandalize his store with graffiti and broken
windows. Mr. Leeds was used to living in difficult envi­
ronments growing up and felt he could rehabilitate the
surrounding area by cleaning, painting, removing the
bars on the store windows and beautifying the entire
area with flowers and trash removal on every block en­
tirely around his store. This was the motto that would
be his success throughout building twenty six loca­
tions. A solid love for his community and treating each
member of his team that came on board as family. Mr.
Leeds used his adversity that was detrimental in his
childhood to overcome obstacles through the multiple
employment positions he worked from the age of nine
to build a company that would have his largest com­
petitor request to purchase his chain of mattress stores
with Mr. Leeds as the spokesperson for $11.5 million
dollars. This contract would also include the purchase
of two buildings he owned and an employment contract
for ten years at $100K a year to keep Mr. Leeds the
spokesperson for Leeds Mattress Stores ongoing as
twenty five million dollars plus were spent to build
Leeds Mattress Stores with Mr. Leeds as the central

13
personality as the owner representing himself with
his trademarked cartoon and logo with the slogan. Mr.
Leeds was “Neil With The Deal” & “I Won’t Be Beat!
Indicating to every community he placed his mattress
locations that he assured personally the guaranteed
service and lowest prices in town every day of the
week. That first television ad would be repeated for
twenty five years. Mr. Leeds learned that the repetition
and frequency of the media kept his business with a
steady and increased level of business each store he
opened. Mr. Leeds continued to keep his banking rela­
tionship with Hanmi Bank leaving behind multi mil­
lions of dollars and the ability to retire in the year 2008
to continue to grow the company mutually with Hanmi
Bank after he passed on the sale to be with his trusted
relationship managers of Hanmi Bank. Mr. Leeds also
speaks on the company cash flow of over one hundred
and fifty thousand a month which was about three
hundred dollars a day from each of his sixteen stores
before he would continue his expansion to twenty six
locations that with the commitment from Hanmi Bank.
Hanmi Bank refused to share that I advanced to those
locations with them. The record states I stopped in the
year two thousand eight. Mr. Leeds just began the
build out of the stores at that time.
These records of finance are all available from gov­
ernment sources and Mr. Leeds directly.
Mr Leeds had developed the relationship with
Hanmi Bank through his girlfriend who moved from
New York to be with him. As mentioned in the intro­
duction. J. Shin was Korean. She arrived in Los

14
Angeles a few months after Mr. Leeds confirmed his
employment with Bassett Mattress. J. Shin would se­
cure a career with a certified public accountant who is
in business today as Kwang Nam CPA doing business
in Los Angeles. Mr. Leeds was banking with Well Fargo
as his first loan was secured in the amount of three
hundred thousand from the local North Hollywood
branch manager that would see Mr. Leeds sweeping
and maintaining his store. Mr. Leeds was already be­
ginning to reach his clients with his television adver­
tising and beginning to be too busy to prepare his
accounting needs. Mr. Leeds would ask J. Shin if she
would work at Leeds Mattress Stores with him and
have Mr. Nam who was her employer take over the ac­
counting work. She agreed and left Mr. Nam as an em­
ployee and would work directly for Leeds Mattress
Stores as the executive of the office and finances of the
growing company. Mr. Nam who was now preparing
Mr. Leeds finances, taxes and all related compliance for
payroll and quarterly filings to prepare for the yearly
taxes due. Mr. Nam invited J. Shin and Mr. Leeds to
meet the executives at Hanmi Bank as it would be
more efficient to have the relationship with a Korean
Bank and work with J. Shin together as they would
speak in the Korean and English language. Mr. Leeds
agreed to move his banking to Hanmi Bank and would
begin to purchase property into the millions of dollars
and have a line of credit. With the year of when the
sale was to be complete right up to the week of funding
the escrow. The Hanmi Bank executives would come to
meet Mr. Leeds at his Sun Valley location. Which was
the headquarters and warehouse facility. Mr. Leeds

15
assumed the meeting was to thank Hanmi Bank for
the years that Mr. Leeds grew with them and let them
know that the loans would all be paid off at the end of
the week which was bringing Hanmi Bank over sixty
thousand a month in interest payments. The sale con­
tract would have Mr. Leeds personal funds of over
eleven million dollars and the proceeds of the real es­
tate and his employment contract as well. Hanmi Bank
received and the evidence shares the wire and escrow
information that was never allowed in to this case. The
Hanmi Bank executives asked Mr. Leeds what the
owner of Sit N Sleep can do that Mr. Leeds could not
do as Mr. Leeds was still a healthy young man in their
words. Mr. Leeds proceeded to share that Mr. Miller
was affluent and had a huge capacity to funding The
Leeds Mattress Stores to grow to fifty stores over a five
year plan. Mr. Leeds shared the details of the target
goals and Hanmi Bank with the officers at the meeting
decided that if I could still cancel my sale contract that
they would enjoy to keep the relationship and fund
Leeds Mattress Stores with a larger credit line and the
continued access to credit to purchase real estate that
a Leeds Mattress Location would be renting. In that
respect the relationship was mutual. Hanmi Bank was
receiving the interest and gaining an asset with Mr.
Leeds. Mr. Leeds contacted his lawyers and Mr. Miller
from Sit N Sleep and the deal would be cancelled and
the escrow deposits returned. Mr. Leeds would begin to
seek out new locations as planned and purchase his
next new property in March of 2008 in the three mil­
lion dollar amount. With close to one million in de­
posits and renovation funds coming from Mr. Leeds

16
checking account. Mr. Leeds was grossing over twenty
five million dollars a year and his current sixteen
stores were producing over one hundred and fifty thou­
sand and more per month which allowed him to self
fund and continue as he always did for years since his
very first store. The IRS Tax returns all share this evi­
dence. Which would include the Franchise Tax Board
and the SBA. In fact the entire documents that Mr.
Leeds has for his case that was never allowed in
through normal means or judicial notice all were fil­
ings that were government based. Mr. Leeds would
open a larger warehouse and continue to open ten new
stores from 2008 to 2013. Including purchasing prop­
erties. What was not allowed for evidence will share
with for the record. Hanmi Bank was not providing
information to Mr. Leeds that they were under orders
to comply with the Federal Reserve on a substantial
doubt about the entity’s ability to continue as a Going
Concern. Mr. Leeds never could have known this as
this was shared to him through the SEC Filings. Mr.
Leeds had developed a pen pal relationship with The
Chairman & Ceo of Berkshire Hathaway as a result of
opening next to a See’s Candy Shop in Torrance, Ca.
Mr. Leeds would seek to beautify the neighbors includ­
ing See’s Candy parking lot and needed management
approval. Mr. Leeds was using his own funds to do this
as he always would with every location he would open.
Mr. Leeds did not know See’s Candy Stores were owned
by Berkshire Hathaway. Mr. Leeds would complete the
work to ensure the stores all looked great and would
meet the staff at See’s Candy to thank them for the
approval. Mr. Leeds would then find out that The

17
Chairman of Berkshire Hathaway liked a particular
candy and Mr. Leeds would write to his direct office
in Omaha Nebraska. Mr. Leeds would continue to
write to him on every birthday of his that came around.
Mr. Leeds would realize the Chairman of Berkshire
Hathaway, aside from being an investor, businessman,
and a financial advisor, Warren Buffett was also a
teacher. Mr Leeds would continue to seek everything
Mr. Buffett shared online and would write to thank
him for the free information that led Mr. Leeds to find
out everything he could not retrieve from Hanmi Bank
in his exhaustive search and requests from Hanmi
Bank personally. Mr. Leeds would find that Mr. Buffett
wrote a preface to A Plain English Handbook How to
create clear SEC disclosure documents By the Office of
Investor Education and Assistance U.S. Securities and
Exchange Commission. Mr. Leeds would read what he
said, for more than forty years, I’ve studied the docu­
ments that public companies file. Too often, I’ve been
unable to decipher just what is being said or, worse yet,
had to conclude that nothing was being said. If corpo­
rate lawyers and their clients follow the advice in this
handbook, my life is going to become much easier.
There are several possible explanations as to why I
and others sometimes stumble over an accounting note
or indenture description. Maybe we simply don’t have
the technical knowledge to grasp what the writer
wishes to convey. Or perhaps the writer doesn’t under­
stand what he or she is talking about. In some cases,
moreover, I suspect that a less than scrupulous issuer
doesn’t want us to understand a subject it feels legally
obligated to touch upon. Perhaps the most common

18
problem, however, is that a well-intentioned and in­
formed writer simply fails to get the message across to
an intelligent, interested reader. In that case, stilted
jargon and complex constructions are usually the vil­
lains. This handbook tells you how to free yourself of
those impediments to effective communication. Write
as this handbook instructs you and you will be amazed
at how much smarter your readers will think you have
become. See Preface This handbook, and Chairman
Levitt’s whole drive to encourage “Plain English” in
disclosure documents, are good news for me. For more
than forty years, I’ve studied the documents that pub­
lic companies file. Too often, I’ve been unable to deci­
pher just what is being said or, worse yet, had to
conclude that nothing was being said. If corporate law­
yers and their clients follow the advice in this hand­
book, my life is going to become much easier. There are
several possible explanations as to why I and others
sometimes stumble over an accounting note or inden­
ture description. Maybe we simply don’t have the tech­
nical knowledge to grasp what the writer wishes to
convey. Or perhaps the writer doesn’t understand what
he or she is talking about. In some cases, moreover, I
suspect that a less than scrupulous issuer doesn’t want
us to understand a subject it feels legally obligated to
touch upon. Perhaps the most common problem, how­
ever, is that a well intentioned and informed writer
simply fails to get the message across to an intelligent,
interested reader. In that case, stilted jargon and
complex constructions are usually the villains. This
handbook tells you how to free yourself of those im­
pediments to effective communication. Write as this

19
handbook instructs you and you will be amazed at
how much smarter your readers will think you have
become. One unoriginal but useful tip: Write with a
specific person in mind. When writing Berkshire
Hathaway’s annual report, I pretend that I’m talking
to my sisters. I have no trouble picturing them: Though
highly intelligent, they are not experts in accounting
or finance. They will understand plain English, but jar­
gon may puzzle them. My goal is simply to give them
the information I would wish them to supply me if our
positions were reversed. To succeed, I don’t need to be
Shakespeare; I must, though, have a sincere desire to
inform. No siblings to write to? Borrow mine.
A Plain English Handbook How to create clear
SEC disclosure documents By the Office of Investor
Education and Assistance U.S. Securities and Ex­
change Commission.
Mr. Leeds would begin to study Mr. Warren E. Buf­
fett’s entire biography and read the Snowball. Mr.
Leeds would learn to study the SEC Filings to find eve­
rything that he never knew about Hanmi Bank. Which
Mr. Leeds contacted Hanmi Bank in less than twenty
five months after his completed chapter seven bank­
ruptcy and placed them on notice and worked to find a
law firm on pro bono. Kabateck Brown Kellner LLP
sent Mr. Leeds a decline of taking my case on March
29, 2017. Hanmi Bank cut off Mr. Leeds funding and
continued to share untruthful statements that ulti­
mately destroyed his entire life of work which included
the sale of his company to Sit N Sleep and his ability
to continue his growth to fifty locations. Mr. Leeds

20

would have his loans directly made to Neil G Leeds and
while they just allowed Mr. Leeds to open ten stores
and purchase a building for millions of dollars. Hanmi
Bank never shared that in two thousand seven they
were already losing sixty million and falling deeper in
loan losses. Mr. Leeds was never late and was in the
top ten clients for Hanmi Bank which the letter for ev­
idence that was not even considered shared just that.
What was not shared was the demonstrable evidence
on everything that supported his claims that were ev­
idenced by his bank statements and The Securities &
Exchange Reports along with The Federal reserve.
Mr. Leeds would be forced to file a chapter seven in his
own name with Hanmi Bank taking everything he
owned of over sixteen million dollars. His real estate
and everything that it took to build his company from
scratch was taken, a life of work destroyed. Not includ­
ing the twenty five million in advertising and store
build outs. Mr. Leeds would end up homeless and had
a setback that led him to hospitalization. The records
are available through a court order. However Mr. Leeds
never has been able to see a judge and was left to pros­
ecute his claim on his own. The evidence that Mr. Leeds
brought to attention numerous times leading even to
the California Supreme Court was that he had no
court reporter. And he had fee waivers and was ap­
proved as a pauper the entire time. Mr. Leeds case
was titled Leeds Mattress Stores Inc, Neil Leeds v.
Hanmi Bank. Mr. Leeds complied with every request
and has every receipt including the court reporter
transcript funds that cost six hundred and fifty dollars.
Which the funds were never refunded and the court

21
states that the court reporter was at trial. Mr. Leeds
never had a chance to go before a judge to share every­
thing that happened to him. He had a very substantial
motivating factor as to his Unruh Civil Rights Act
claim. His ex girlfriend who was the executive for
Leeds Mattress Stores and worked directly for years
with Hanmi Bank and Mr. Nam the CPA. Had taken
property from his business and had to call the North
Hollywood Police Department to have a Korean Detec­
tive reach out to New York and the Shin Family to re­
cover the personal property and checks. Mr. Leeds has
the evidence and all records. He never filed charges.
However this is part of the case that reaches to how
Hanmi Bank chose to leave Mr. Leeds bankrupted. Mr.
Leeds filed two causes of action. One was for the Busi­
ness and Professions Code §§ 17200 et seq. The other
being The Unruh Civil Rights Act claim. Mr. Leeds al­
ways felt that the trial by jury with instructions
reached to each area that he needed to prove. Mr. Leeds
has never been able to share his case. Mr. Leeds would
like to mention that on oral argument he was faced
with four judges and the entire litigation firm Lim
Nexus who represents Hanmi Bank. Mr. Leeds cites
Gideon v. Wainwright, 372 U.S. 335 (1963) as to being
in a position to protect his family and financial life and
not knowing how to defend himself against the law
firm who was citing cases that had no merit against his
current case.
I Neil G Leeds share this complete case before you
under perjury. I had no help writing this. I am a pro se

22
litigant and currently find myself without council con­
tinued due to my financial crisis.

REASONS TO GRANT THE PETITION
Certiorari Should Be Granted Because The Cali­
fornia Supreme Court Decision Below Conflicts with
the legislation passed and case regarding the access to
justice for the poor. Jameson v. Desta. GOVERNMENT
CODE (68630) (a).
The California Supreme Court in Jameson v.
Desta (2018) 5 Cal.5th 594 surveyed the significant
common law history in California allowing qualified
litigants to appear in forma pauperis, and it reviewed
the public policy of the state as expressed in various
statutory enactments. (5 Cal.5th at pp. 603-608, 234
Cal.Rptr.3d 831,420 P3d 746.) Recognizing the crucial
importance of a reporter's transcript in meaningfully
exercising the right to appeal (Id. at pp. 608-610, 234
Cal.Rptr.3d 831, 420 P.3d 746), Jameson concluded
that the San Diego court’s policy of not providing an
official court reporter in most civil cases leaving it to
the parties to employ a private reporter only if they
could afford one was invalid because it denied indigent
litigants equal access to the courts. (Id. at pp. 622-623,
234 Cal.Rptr.3d 831,420 P.3d 746.) The Chief Justice’s
opinion explained that if a local court adopts a policy
of not providing official court reporters in civil cases,
it must include “an exception for fee waiver recipients
that assures such litigants the availability of a

23

verbatim record of the trial court proceedings, which
under current statutes would require the presence of
an official court reporter” (Id. at p. 623,234 Cal.Rptr.3d
831,420 P.3d 746.) Mr. Neil Leeds has been in below pov­
erty conditions since this controversy with Hanmi
Bank forced him to a personal Chapter seven bank­
ruptcy in the year 2014. Mr. Leeds has been homeless
at a time and has been at the continued charity of oth­
ers. The theory which underlies the statute involved
here is that no man should be denied the right to pros­
ecute a meritorious cause of action by reason of his
poverty. He is to be allowed to institute and prosecute
his suit without the payment of fees or giving security
for costs. Justice is for all, not for those only who may
be able to pay the cost of litigation. The same poverty
that compels a litigant to avail himself of this benefi­
cent statute makes it impossible for him to hire coun­
sel. He can procure counsel only by agreeing that out
of the proceeds of his case, if there are proceeds, coun­
sel shall be compensated. Certainly it conflicts with the
spirit of the statute to hold that, while a poor man may
sue in the courts of the United States, he may not have
counsel if he sues in forma pauperis. In practical effect
he is denied counsel if his counsel must either himself
guarantee the costs or file an affidavit that he also is
penniless. The statute was intended for the benefit of
those too poor to pay or give security for costs, and it
was not intended that they should be compelled to em­
ploy only paupers to represent them. See Isrin v. Supe­
rior Court, 63 Cal.2d 153. Mr. Leeds was assured he
had a court reporter with his contingency attorney and
was assured by the court clerks as he paid the fees for

24
the court reporter transcript. Mr. Leeds would not have
his attorney after his case had a judgment of dismissal
with prejudice after sustaining of demurrer to second
amended complaint without leave to amend. Mr. Leeds
had several judges on his case as his first judge Mr.
Hess retired towards the end of the pleadings that Mr.
Arash went to court on in person. Mr. Leeds was told
by his attorney that he had no experience on appeals
and that he could not afford to hire an appeal lawyer
for him. Mr. Leeds would pay the court fees, which
never should of been paid. However, Mr. Leeds com­
plied with the court and the attorney so he would not
lose his chance to pursue his case. Mr. Leeds shared to
him that he has continued his case since he first spoke
with him to help retrieve his banking records from
Hanmi Bank that was unsuccessful. Mr. Leeds would
continue to seek after his case against Hanmi Bank.
Mr. Leeds would visit the court house multiple times
to ensure that he had all his fee waivers and payments
made for his case as directed by the court. Mr. Leeds
would lose his corporation in his filings after all was
paid and waiver documents stamped. Mr. Leeds has a
ninth education and has a very hard time in his writ­
ing skills. Mr. Leeds would seek to find an appeal law­
yer to reinstate his corporation and continue to pursue
his case. Mr. Leeds would have to borrow funds from a
high interest bank to pay for Mr. Corey Parker. Mr. Par­
ker would learn what he could to share to the court
that Mr. Leeds complied with all of the courts requests.
However Mr. Leeds was denied to reinstate his corpo­
ration or amend. Mr. Leeds was left to pursue his case
as a pro se litigant since. Mr. Leeds would like to point

25
out. That his pleadings and efforts to continue pro se
were met with resistance on every document he tried
to get in to the court. Mr. Leeds would be turned down.
Mr. Leeds would see his past attorney cite a case see
Garnet v. Blanchard, 91 Cal.App.4th 1276 (Cal. Ct.App.
2001) that would get published. In Garnet v. Blanchard
(2001) 91 Cal.App.4th 1276 (Garnet), the court set
forth the principle that self-represented litigants are
not entitled to special exemptions from California’s
procedural rules, but they are “entitled to treatment
equal to that of a represented party.” (Id. at p. 1284.)
To provide “fair and equal treatment,” courts should
“make sure that verbal instructions given in court and
written notices are clear and understandable by a lay­
person.”
Mr. Leeds would cite the same case not knowing
that Mr. Parker had a similar one and his client would
continue his case in to the courts. Mr. Leeds would seek
every case he could and would find that The California
Supreme Court had worked for years to ensure that
In forma pauperis litigants would have access to court
reporters on appeal. Mr. Leeds tried to share his case
with the same judge who took his corporation away
and was denied. Mr. Leeds would see the same situa­
tions be overturned for lack of a court reporter for the
In forma pauperis litigants. Mr. Leeds has struggled to
provide everything to this court and has studied many
hours as he continued to pay his bills with no legal help
at all. Mr. Leeds never wished to be seeking anything
free from his government. As Mr. Leeds worked his en­
tire life to escape poverty. Mr. Leeds lost any ability to

26

have funds from this case that he presents. He has
been in a chapter seven bankruptcy since the end of
two thousand fourteen. It will take a total of ten years
from his filing to have that removed from his credit re­
port. Mr. Leeds has no ability to pay for an attorney
since he began in the courts and was always approved
for In forma pauperis under perjury. Mr. Leeds would
notice while he had no funds for a law firm to assist his
case. Mr. Leeds was seeking equal justice under law as
such was the legislation’s intention. The inclusion of
court reporter’s fees in the fees waived upon granting
an application for an initial fee waiver is intended to
provide a fee waiver recipient with an official court re­
porter or other valid means to create an official verba­
tim record, for purposes of appeal, on a request. (See
Jameson v. Desta (2018) 5 Cal. 5th 594.) It is intended
to include within a waiver all fees mandated under the
Government Code for the cost of court reporting ser­
vices provided by a court.
See Dogan v. Comanche Hills Apartments, Inc., 31
Cal.App.5th 566 (Cal. Ct. App. 2019) After initial brief­
ing in this case was complete, the California Supreme
Court issued its decision in Jameson v. Desta (2018) 5
Cal.5th 594, 234 Cal.Rptr.3d 831,420 P.3d 746 (Jame­
son), holding that the San Diego Superior Court’s pol­
icy on providing court reporters “is invalid as applied
to plaintiff and other fee waiver recipients, and that an
official court reporter, or other valid means to create an
official verbatim record for purposes of appeal, must
generally be made available to in forma pauperis liti­
gants upon request.” (Id. at p. 599,234 Cal.Rptr.3d 831,

27

420 P.3d 746.) As defendants appropriately concede in
their post-Jameson supplemental brief, Jameson ap­
plies retroactively to all cases, including this one, not
yet final on appeal. Because there is no way to now pro­
vide a reporter for a trial that has already occurred, we
have no choice but to reverse and remand for a new
trial at which an official court reporter will be fur­
nished.
See Padron v. City of Parlier, F077052 (Cal. Ct.
App. June 25,2020) Although we conclude plaintiff has
failed to establish error regarding the matter of jury
fees, we agree with plaintiff that the trial court erred
in denying his request for a waiver of court reporter
fees. Based on the recent Supreme Court decision in
Jameson v. Desta (2018) 5 Cal.5th 594 (Jameson), a
case discussing access to justice principles in the con­
text of an in forma pauperis civil litigant, we conclude
that we must reverse the trial court and remand the
case for a new trial at which a court reporter shall be
provided. In Jameson, which involved a similar denial
of a court reporter to a civil litigant who had received
an initial fee waiver, the Supreme Court declared as
follows: “Under California’s in forma pauperis doctrine
and Government Code section 68086, subdivision (b), a
person who because of limited financial resources qual­
ifies for a waiver of initial court filing fees is entitled,
as well, to a waiver of fees for the attendance of an of­
ficial court reporter at a hearing or trial.” (Id. at p. 598,
fn. omitted.) In that case, where the appeal was - as
here - from a nonsuit motion granted by the trial court,
Jameson concluded that the erroneous denial of a court

28

reporter was not a harmless error. (Id. at pp. 624-625.)
The situation presently before us is closely analogous,
and we conclude that Jameson is applicable. Further­
more, and consistent with the similar context in Jame­
son, the error here does not appear to be harmless;
thus, reversal is required. (Ibid.) In summary, the judg­
ment of the trial court is reversed, and the case is re­
manded for a new trial that shall include the provision
of a court reporter.
Mr. Leeds would read the entire case and opinion
that was very elaborate on see M. L. B. v. S. L. J., 519
U.S. 102 (1996)
Despite the statement, the Chancery Court never
elaborated on the evidence or clearly explained why
M.L.B.’s parental rights had been dismissed. When
M.L.B. went to appeal, she was unable to pay for the
record preparation fees of $2,352.36 and so was denied.
She then went to appeal under in forma pauperis but
was again denied on the grounds that in forma pau­
peris is not demanded in civil cases, only criminal
cases.
The case was then brought to the Supreme Court,
where M.L.B. held that an inability to pay court fees
should not be decisive of something as precious as pa­
rental rights. She used the guidelines set out in the due
process and equal protection clauses of the Fourteenth
Amendment to fight her case.
The Supreme Court decided in the petitioner’s fa­
vor and stated that in matters regarding parental

29
rights, a court may not stop a party from appealing the
case based on financial means.
Because this ruling extended in forma pauperis to
civil cases, there was a question of how liberally it
could be applied. It was then clarified that in forma
pauperis may be applied to civil cases only if state con­
trols or intrusions on family relationships are involved.
The Supreme Court decided that the family unit is con­
sidered so fundamental that its liberty interests
should be protected by the Fourteenth Amendment.
The protection of appellate rights was considered to be
just as important as that of criminal rights. Mr. Leeds
never wanted to seek government help as he describes
throughout this Writ of Certiorari. However Mr. Leeds
has lost his entire life of work and property and the
inability to care for his family. A case that can be
proven correctly if provided the opportunity
Mr. Leeds would seek out every possibility for free
legal assistance and could not find any. In fact most
were calls that led him to an answering machine and
did not accept a civil case he had. Mr. Leeds will always
be of understanding of the hardship facing everyone.
This case brought him to learn more than he ever did
in his entire life in terms of the constitution and law.
Mr. Leeds wishes to have more time to study.
Assembly Bill No. 2448 CHAPTER 462 An act to
add Article 6 (commencing with Section 68630) to
Chapter 2 of Title 8 of, and to repeal Section 68511.3
of, the Government Code, relating to the courts. [Ap­
proved by Governor September 27, 2008. Filed with

30

Secretary of State September 27, 2008.]legislative
counsel’s digest AB 2448, Feuer. Courts: access to jus­
tice. Existing law requires the Judicial Council to for­
mulate and adopt uniform forms and rules of court for
litigants proceeding in forma pauperis, providing,
among other things, standard procedures for consider­
ing and determining applications for permission to
proceed in forma pauperis, and that permission to pro­
ceed in forma pauperis be granted to eligible litigants.
This bill would, beginning July 1, 2009, revise and re­
cast these provisions to provide, instead, that an initial
fee waiver shall be granted by the court at any stage of
the proceedings at both the appellate and trial court
levels if an applicant meets specified standards of eli­
gibility and application requirements. The bill would
authorize the court to reconsider the initial fee waiver
and to recover fees and costs that were waived under
specified circumstances. Among other things, the bill
would impose a lien in favor of the court against any
settlement, compromise, award, or other recovery in
excess of $10,000 by a party in a civil case whose court
fees and costs were initially waived in the amount of
those waived fees and costs. The bill would require the
Judicial Council to adopt rules and forms to establish
uniform procedures to implement these provisions,
and would require applicants for an initial fee waiver
to complete application forms under penalty of perjury.
The bill also would require a party who petitions the
court to enter a satisfaction of judgment to declare
under penalty of perjury that any order requiring pay­
ment of waived fees and costs has been satisfied, and a
party who petitions the court for dismissal in a case to

31
declare under penalty of peijury that a lien in favor of
the court against any settlement, compromise, award,
or other recovery has been paid, as specified. By ex­
panding the scope of the crime of peijury, this bill
would impose a state mandated local program. The
California Constitution requires the state to reimburse
local agencies and school districts for certain costs
mandated by the state. Statutory provisions establish
procedures for making that reimbursement. This bill
would provide that no reimbursement is required by
this act for a specified reason.
Sargent Shriver Civil Counsel Act (AB 590)
(Feuer) Seven pilot projects selected by the Judicial
Council of California through a competitive RFP pro­
cess provide representation to low-income Californians
on critical legal issues affecting basic human needs.
The pilot projects are operated by legal services non­
profit corporations working in collaboration with local
courts. Pilot Project Overview. The pilot projects aim to
address the substantial inequities in timely and effec­
tive access to justice that often arise because of the na­
ture and complexity of the law and a particular
proceeding or because of disparities between the par­
ties in education, sophistication, language proficiency,
legal representation, and access to self-help and alter­
native dispute resolution services. Pilots, which are
each a partnership of a lead legal services nonprofit
corporation, the court, and other legal services provid­
ers in the community, provide legal representation to
low-income Californians at or below 200 percent of the
federal poverty level. The purpose of these services is

32
to ensure that unrepresented parties in the proposed
case types have meaningful access, to guard against
the involuntary waiver of rights in the selected legal
areas or the disposition of cases by default, and to en­
courage fair and expeditious voluntary dispute resolu­
tion, consistent with principles of judicial neutrality
Since not all eligible low-income parties with meritori­
ous cases can be provided with legal representation,
the court partners are implementing improved court
procedures, personnel training, case management and
administration methods, and best practices. Timeline
Pilot projects started in fiscal year 2011-2012 and are
initially authorized for a three-year period, subject to
renewal. All pilots and funding will terminate after six
years (in 2017) unless the Legislature extends the stat­
utory authority.
Mr. Leeds had used CA Ev Code § 459 but could
not get through the doors of the appeal court or The
Supreme Court of California. Mr. Leeds oral argument
shared it all. At the nineteenth minute mark. Opposing
council was sharing citations that Mr. Leeds would find
that had no relation to his case. The authorities that
Mr. Leeds wanted to go through. They remained the
same. They all went back to these words. In reviewing
the sufficiency of a complaint against a general demur­
rer, we are guided by long-settled rules. “We treat the
demurrer as admitting all material facts properly
pleaded, but not contentions, deductions or conclusions
of fact or law. We also consider matters which may be
judicially noticed.” Mr. Leeds never was allowed to
share anything to the court as of today.

33

Evidence Code
DIVISION 4. JUDICIAL NOTICE [450-460]
Section 459
(a) The reviewing court shall take judicial notice
of (1) each matter properly noticed by the trial court
and (2) each matter that the trial court was required
to notice under Section 451 or 453. The reviewing court
may take judicial notice of any matter specified in Sec­
tion 452. The reviewing court may take judicial notice
of a matter in a tenor different from that noticed by the
trial court.
(b) In determining the propriety of taking judi­
cial notice of a matter, or the tenor thereof, the review­
ing court has the same power as the trial court under
Section-454.
(c) When taking judicial notice under this section
of a matter specified in Section 452 or in subdivision
(f) of Section 451 that is of substantial consequence to
the determination of the action, the reviewing court
shall comply with the provisions of subdivision (a) of
Section 455 if the matter was not theretofore judicially
noticed in the action.
(d) In determining the propriety of taking judi­
cial notice of a matter specified in Section 452 or in
subdivision (f) of Section 451 that is of substantial con­
sequence to the determination of the action, or the
tenor thereof, if the reviewing court resorts to any
source of information not received in open court or not
included in the record of the action, including the

34
advice of persons learned in the subject matter, the re­
viewing court shall afford each party reasonable oppor­
tunity to meet such information before judicial notice
of the matter may be taken.
I, Neil G. Leeds humbly come before the United
States Supreme Court as a pauper who wrote this en­
tire petition without any legal help. I can't read my
own handwriting and I tried my best to work with pre­
paring the required format. I had seen the name of the
company reading The United States Supreme Court
Dockets. I would see the community was Omaha, Ne­
braska. Where my pen pal lives and thought to the co­
incidence and called the company. I was happy to know
I had an opportunity to prepare this as I was turned
down for compliance issues on 11/17/2020. Order filed.
THE COURT. The request to file untimely petition for
rehearing submitted by appellant on November 17,
2020 is denied for lack of good cause. I had so much
more I wanted to share, however, I am out of time and
I must submit as I have this before you. I come to you
as a Civil Gideon.

35
CONCLUSION
For the foregoing reasons, the Court should grant
a writ of certiorari.
Respectfully submitted,
Neil G. Leeds
Pro Se
1126 Crenshaw Blvd.
Torrance, CA 90501
Telephone (818) 738-5286
neilleeds@mail. com
Council for Petitioner

